Audit
Report
        ADVANCED SENSOR APPLICATIONS PROGRAM
                    JOINT PROJECT


Report No. D-2002-017                 November 23, 2001



             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASAP                  Advanced Sensor Applications Program
DCIS                  Defense Criminal Investigative Service
DoCIG                 Department of Commerce Inspector General
ETL                   Environmental Technology Laboratory
ISSO                  Intelligence Systems Support Office
NOAA                  National Oceanic and Atmospheric Administration
OAR                   Oceanic and Atmospheric Research
                       Office of the Inspector General, DoD
Report N. D-2002-017                                          November 23, 2001
 (Project No. D2000FD-0265)

           Advanced Sensor Applications Program Joint Project

                               Executive Summary

Introduction. In June 1993, DoD and the National Oceanic and Atmospheric
Administration, Department of Commerce, established a memorandum of
understanding to implement a cooperative program of research and development
intended to accomplish major improvements in non-acoustic technology. The program
was a congressionally established joint project under the Advanced Sensor Applications
Program. We performed the audit in cooperation with the Inspector General,
Department of Commerce, and the Defense Criminal Investigative Service. The
Inspector General, Department of Commerce, received an allegation concerning
potential misappropriation of DoD funds by the Environmental Technology Laboratory,
National Oceanic and Atmospheric Administration, located in Boulder, Colorado. The
allegation was that the Environmental Technology Laboratory charged the Advanced
Sensor Applications Program Joint Project for costs applicable to other programs.

Objective. The objective of the audit was to determine whether DoD funds provided to
the Environmental Technology Laboratory were spent in accordance with program
objectives and the June 8, 1993, Memorandum of Understanding between the
Intelligence Systems Support Office, Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) and the Environmental Technology
Laboratory.

Results. We substantiated the allegation of mischarging DoD funds by the
Environmental Technology Laboratory. During FYs 1998, 1999, and 2000, the
Environmental Technology Laboratory inappropriately charged $1.6 million to the
Advanced Sensor Applications Program Joint Project for costs that were either not
applicable to the project or were not supported. Of that amount, $402,547 was charged
for labor costs, $677,232 was charged for other costs, and $532,191 was charged for
costs of research grants not connected with the Advanced Sensor Applications Program.
As a result, DoD paid for costs incurred by the Environmental Technology Laboratory
with no assurance that the charges benefited the Advanced Sensor Applications
Program.

Summary of Recommendations. We recommend that the Program Manager for the
Intelligence Systems Support Office, Assistant Secretary of Defense (Command,
Control, Communications, and Intelligence) request the Administrator, National
Oceanic and Atmospheric Administration, to reconcile the costs charged to the
Advanced Sensor Applications Joint Project from June 1993 to the present. We
recommend the Intelligence Systems Support Office Program Manager oversee the
reconciliation and determine those costs mischarged and those costs that cannot be
supported. We also recommend that the Intelligence Systems Support Office Program
Manager request the Administrator, National Oceanic and Atmospheric Administration,
to return funds in the amount of the mischarges and unsupported charges. If the
Administrator, National Oceanic and Atmospheric Administration, does not reconcile
the costs charged to the Advanced Sensor Applications Joint Project to the satisfaction
of the Intelligence Systems Support Office Program Manager, we recommend that the
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
direct the Intelligence Systems Support Office Program Manager to terminate the
agreement with the National Oceanic and Atmospheric Administration for research and
development in non-acoustic technology.

Management Comments. The Intelligence Systems Support Office concurred with the
recommendations, stating that they take the Inspector General finding substantiating the
allegation of misuse of DoD funds very seriously. The Intelligence Systems Support
Office will request the Administrator, National Oceanic and Atmospheric
Administration, to reconcile costs charged to the Advanced Sensor Applications
Program and will oversee the reconciliation to be completed by April 1, 2002. The
Intelligence Systems Support Office will request National Oceanic and Atmospheric
Administration to return funds in the amount of the mischarges and unsupported
charges that result from the reconciliation. The Intelligence Systems Support Office
stated that they terminated their relationship with the Environmental Technology
Laboratory effective September 30, 2001.

Audit Response. The Intelligence Systems Support Office comments are fully
responsive. We commend the Advanced Sensor Applications Program Manager for the
extraordinary measures taken in response to the audit findings.




                                           ii
Table of Contents

Executive Summary                                      i

Introduction
     Background                                        1
     Objective                                         1
     Other Matters of Interest                         2

Finding
     Evaluation of Program Costs                       3


Appendixes
     A. Audit Process
         Scope and Methodology                        12
         Prior Coverage                               13
     B. Examples of Timesheet Irregularities          14
     C. Example of Altered Supporting Documentation   22
     D. Report Distribution                           23

Management Comments
     Intelligence Systems Support Office              25
  Background
    We performed the audit in cooperation with the Inspector General, Department
    of Commerce (DoCIG) and the Defense Criminal Investigative Service (DCIS).
    The DoCIG and DCIS received an allegation concerning misappropriation of
    DoD funds by the Environmental Technology Laboratory (ETL), National
    Oceanic and Atmospheric Administration (NOAA), located in Boulder,
    Colorado. The allegation charged that ETL misused DoD funds intended for the
    Advanced Sensor Applications Program (ASAP) Joint Project by diverting DoD
    funds to unrelated research on other ETL programs and charged those costs to
    ASAP. ETL is a component of the Office of Oceanic and Atmospheric
    Research (OAR) within NOAA.

    Oceanic and Atmospheric Research Mission. OAR plans, organizes,
    manages, and conducts research and development to meet the needs of NOAA.
    OAR consists of laboratory and extramural research projects that provide
    technological and scientific information, or capabilities on which to base
    improvements in NOAA services, products, and policies. OAR administers
    programs through its 12 laboratories including the ETL.

    Environmental Technology Laboratory. ETL supports NOAA environmental
    monitoring by performing oceanic and atmospheric research and by developing
    new remote-sensing systems. ETL collaborates with experts on all aspects of
    the interaction of radio, radar, light, and sound waves to study atmospheric and
    oceanic processes and to probe regions that are not readily accessible by direct
    measurement. The five divisions of NOAA focus on different sensor
    technologies and on different aspects of the ocean-atmospheric environment.


Memorandum of Understanding
    In June 1993, DoD and NOAA established a memorandum of understanding to
    implement a cooperative program of research and development intended to
    accomplish major improvements in non-acoustic technology. The program was
    a congressionally established joint project under ASAP.

    ETL Funding. Between September 30, 1992, and September 30, 2000, DoD
    issued Economy Act Orders totaling $44 million to ETL. The Economy Act
    Orders were for research and development on the use of multipurpose sensors
    for both military applications and environmental purposes in atmospheric and
    oceanic research.

Objective
    The objective of the audit was to determine whether DoD funds provided to
    ETL were spent in accordance with program objectives and the June 8, 1993,
    Memorandum of Understanding between the Intelligence Systems Support
                                         1
     Office (ISSO), Assistant Secretary of Defense (Command, Control,
     Communications, and Intelligence), and ETL.

Other Matters of Interest
     Our review included audit work to determine the status of program funds. We
     performed a reconciliation of funds received, accrued costs, and outstanding
     obligations. Our review disclosed that obligations were incurred for ASAP that
     apparently exceeded available fund authority by $2.3 million as of
     September 30, 2000. We reported the apparent overobligation to a DoCIG
     official on March 6, 2001. Matters disclosed in this report were discussed with
     officials of DCIS and the DoCIG.




                                        2
           Evaluation of Program Costs
           We substantiated the allegation of mischarging DoD funds by ETL.
           During FYs 1998, 1999, and 2000, ETL inappropriately charged the
           ASAP Joint Project for costs that were either not applicable to the
           project or were unsupported. The mischarging of funds included:

             •   labor costs totaling $329,990 that were mischarged to ASAP and
                 $72,557 of labor costs that were unsupported,

             •   miscellaneous costs totaling $545,490 that were mischarged to
                 ASAP and $131,742 in miscellaneous costs that were
                 unsupported, and

             •   research grants totaling $160,310 that were mischarged to ASAP
                 and $371,881 in research grants that were unsupported.

           The mischarging of funds occurred because ETL did not administer
           ASAP in accordance with the requirements of the Economy Act, the
           June 8, 1993, Memorandum of Understanding, and policies and
           procedures established by NOAA. Additionally, the ISSO Program
           Manager did not establish adequate internal controls to ensure that
           program funds were being used for intended purposes. As a result, DoD
           paid for costs incurred by ETL with no assurance that the charges
           benefited the ASAP Joint Project.

Acquisitions Using Economy Act Orders
    The Economy Act, sections 1535 and 1536, title 31, United States Code,
    provides authority for Federal agencies to order goods and services from other
    Federal agencies and pay the actual costs of those goods and services. The
    Economy Act states that orders may be placed with another agency if (1) funds
    are available; (2) the head of the ordering agency decides the order is in the best
    interest of the Government; (3) the agency filling the order is able to provide, or
    get by contract, the goods or services; and (4) the head of the agency decides
    the ordered goods or services cannot be provided by contract as conveniently or
    cheaply by commercial enterprise. Furthermore, the Economy Act requires a
    proper cost adjustment based on actual costs. A cost account, or other device,
    should be used to accumulate the cost of performance for all Economy Act
    orders. Those costs should serve as a historical basis for determining the
    amount reimbursable for cost-reimbursement Economy Act orders.




                                         3
ASAP Program Management
    DoD has the primary responsibility and resources for improvement of non-
    acoustic technology with respect to antisubmarine warfare applications. In
    general, ASAP research is jointly planned and monitored by both DoD and
    NOAA. ISSO manages the DoD ASAP Joint Project on behalf of DoD. ETL is
    responsible for day-to-day program execution.

    Planning. ISSO and ETL officials prepare a research and development plan to
    describe specific technology. The plan provides for the appropriate focusing of
    interdepartmental planning, coordination, and review. Sources, amounts, and
    allocation of funds are delineated in a yearly research and development plan.
    The research and development plan is reviewed annually and revised as needed.

    Management Review. According to the Memorandum of Understanding
    between ISSO and ETL, research and development work is to be reviewed
    regularly in order to facilitate evaluation of results, transfer of technology
    between ETL and ISSO, and adjustments of programmatic direction.
    Management review will be conducted by annual technical review conferences,
    programmatic reviews, and written reports.

NOAA–Wide Standard Labor Distribution Procedures
    NOAA established NOAA-wide Standard Labor Distribution Procedures
    effective June 26, 1996. The procedures were established to ensure that
    consistent and effective accounting methods for labor hours and costs are
    followed throughout NOAA. These procedures provide guidance for the
    establishment and use of a biweekly NOAA-wide Standardized Labor
    Distribution Worksheet. The Standardized Labor Distribution Worksheet is an
    employee timesheet referred to as a “worksheet.” The purpose of the worksheet
    is to provide a means for employees to account fully for actual direct labor
    hours and costs. The procedures outline employee, supervisor, and timekeeper
    responsibilities for the preparation and processing of worksheets, and the
    accurate recording of data in the Department of Commerce Time and
    Attendance Daily Report. The biweekly NOAA-wide Standard Labor
    Distribution Worksheet is the source document for charging labor costs to
    various ETL reimbursable projects such as the one with DoD, and is the basis
    for employee biweekly payroll.

    Employee Responsibilities. Each employee is responsible for submitting an
    accurate, signed, labor distribution worksheet to the timekeeper each pay
    period. The procedures require each employee to ensure the accuracy of the
    reimbursable project number (task numbers) and hours on both the worksheet
    and Time and Attendance Daily Reports. Employees are required to notify their
                                         4
      timekeeper of any discrepancies occurring between the worksheet and related
      statements.

      Supervisory Responsibilities. Each supervisor is responsible for reviewing the
      accuracy and completeness of the information contained on the worksheets and
      for ensuring that the data are correctly recorded on the Time and Attendance
      Daily Reports.

      Timekeeper Responsibilities. Timekeepers are responsible for promptly
      recording the worksheet data into the payroll system each pay period to enable
      payment within the payroll processing cycle. Timekeepers must ensure that a
      Standardized Labor Distribution Worksheet has been prepared, completed, and
      signed by each employee. The original Standardized Labor Distribution
      Worksheet should be filed with the employee’s Time and Attendance Daily
      Report.

Review of the Allegation
      The DoCIG received an allegation concerning misappropriation of DoD funds
      by ETL. It was alleged that ETL misused DoD funds intended for the ASAP
      Joint Project by diverting DoD funds to unrelated research on other ETL
      programs. It was further alleged that ETL then mischarged the costs to the
      ASAP Joint Project. The allegation was substantiated. We determined that,
      during the 3 years we reviewed, $1.6 million of costs charged to the ASAP Joint
      Project were either mischarged or were not supported by adequate
      documentation.

Questioned Costs
      During FYs 1998, 1999, and 2000, ETL charged the ASAP Joint Project for
      costs that were either mischarged to the project or were unsupported by
      adequate documentation. A summary of questioned costs is illustrated below.

                      SUMMARY OF QUESTIONED COSTS
   COST CATEGORY             UNSUPPORTED COSTS             MISCHARGED COSTS

    Labor Costs                      $ 72,557                      $329,990

   Miscellaneous Costs               $131,742                      $545,490

    Research Grants                  $371,881                      $160,310
Total Costs By Category              $576,180                     $1,035,790

Total Unsupported and Mischarged Costs              $1,611,970

                                         5
Labor Costs
    During FYs 1998, 1999, and 2000, ETL charged labor costs totaling
    $1.2 million for 71 Federal employees to ASAP. A review of these costs
    showed that ETL mischarged $329,990 to ASAP, and an additional $72,557
    charged to ASAP was unsupported. We examined all 526 NOAA Standard
    Labor Distribution Worksheets and Time and Attendance Daily Reports for FYs
    1998, 1999, and 2000 to determine whether labor hours charged to ASAP were
    supported and applicable to the ASAP Joint Project. We identified 313
    discrepancies in the 526 timesheets reviewed. See Appendix B for examples of
    timesheet irregularities. The timesheet discrepancies include the following.

             •   Eight employees charged 3,936 direct hours costing $120,292 to
                 ASAP although they did not work on the project.

             •   37 Time and Attendance Daily Reports submitted by timekeepers
                 charged $63,005 to ASAP, although the Standard Labor
                 Distribution Worksheets prepared by employees indicated the
                 employees did not work on the project. See the example in
                 Appendix B.

             •   82 Standard Labor Distribution Worksheets prepared by employees
                 showed that the employees did not work on ASAP, but $152,692
                 was charged directly to ASAP accounting records.

             •   10 ASAP Time and Attendance Daily Reports submitted to payroll
                 were undated.

             •   Nine ASAP Time and Attendance Daily Reports showed no
                 evidence of timekeeper review prior to submission to payroll and
                 eight showed no evidence of ETL supervisory review.

             •   10 ASAP Standard Labor Distribution Worksheets were unsigned
                 by the employee, and 55 were not dated.

    Charging Labor Costs To Use Up ASAP Funds. ETL personnel informed us
    that labor costs were charged to the ASAP Joint Project based on available funds
    and were not necessarily charged to the project based on work performed. For
    example, at the end of FYs 1998 and 1999, $11,804 and $54,754, respectively,
    were charged to ASAP for work of employees who did not work on the project.
    Timekeepers stated that the ETL administrative officer directed those charges to




                                       6
           use up available ASAP funds.1 Consequently, the supporting documentation for
           labor costs charged to ASAP was unreliable.


Miscellaneous Costs
           During FYs 1998, 1999, and 2000, ETL charged 3,805 transactions amounting
           to $13.5 million to ASAP for costs other than labor. We identified $677,232 of
           those costs as unsupported and mischarged to the ASAP program. Those
           charges included expenditures for research grants, materials, subcontractor
           support, computer equipment, travel, overhead, and other miscellaneous
           expenses.

           Materials, Computer Equipment, Travel, and Miscellaneous Expenses. We
           selected a judgmental sample of 665 transactions valued at $1.3 million, which
           represented 17 percent of total transactions and 9 percent of total other costs
           charged to ASAP during the period. We determined that $165,369 (12 percent)
           of our sampled costs either were not supported by adequate documentation or
           did not benefit the program. We also reviewed cost overruns on other ETL
           research projects that were mischarged to the ASAP Joint Project.

           Cost Overruns. During FY 2000, ETL charged $511,863 of cost overruns
           incurred by other ETL research projects to ASAP. The cost overruns were for
           research projects that were unrelated to ASAP. We reviewed documentation for
           the cost transfers that were prepared between April and June 2000. The costs
           were diverted to ASAP in order to fund the overruns of other research projects.
           The documentation shows that NOAA Headquarters personnel approved the
           transfers.

           Examples of Other Sampled Costs. Our sample identified other examples of
           costs charged to ASAP that were not supported by adequate documentation or
           were unrelated to ASAP.

                       •   Several expenses that were charged to ASAP were missing
                           supporting documentation such as receipts, receiving reports, or
                           evidence to support a valid charge to the program. For example,
                           an employee doing research on an unrelated research project
                           purchased software totaling $23,500 using his Government credit
                           card. The only support for the expense was the employee’s
                           handwritten notation on his credit card statement. The employee’s
                           notation had been altered and a second notation had been inserted
                           labeling the cost as an ASAP cost. The employee purchased the
                           software over the phone and there was no evidence that it was
                           received.



1
    The apparent falsification of official timesheets was referred to DCIS for further investigation.
                                                        7
                      •    Several costs charged were unrelated to ASAP. For example, ETL
                           charged ASAP $15,038 to remove existing data cables from the
                           Boulder observatory tower and replace them with fiber optic
                           cables. ASAP also was charged $2,700 to install a 60-foot
                           telephone/power pole in Erie, Colorado. According to the ISSO
                           Program Manager, both expenses were unrelated to ASAP.

                      •    Travel expenses were identified that appeared to be unrelated to
                           ASAP. For example, ASAP was charged $803 for the cost of an
                           airline ticket. The employee traveled to his destination and upon
                           arrival went on annual leave. He remained on annual leave
                           through the entire trip until the day of his departure to return to
                           Boulder, Colorado. Apparently, ASAP paid for the employee’s
                           personal travel.2

                      •    We identified several supporting documents that were altered in
                           order to appear as legitimate charges to ASAP. Several documents
                           reviewed were originally assigned to other ETL research projects
                           but had been altered and the costs charged to ASAP. See
                           Appendix C for an example of an altered document.

           Research Grants. During FYs 1998, 1999, and 2000, ETL charged research
           grants to ASAP valued at $5.4 million. The costs were incurred through a
           cooperative agreement between ETL and the University of Colorado. We
           reviewed documentation supporting the costs charged to ASAP. Our review
           disclosed that $371,880 of costs that were charged to ASAP were unsupported
           and $160,310 were mischarged to ASAP.



Legal and Established Procedures Not Followed
           ETL did not manage ASAP in accordance with the requirements of the
           Economy Act and established NOAA policies and procedures. The Economy
           Act provides for payment of actual cost of goods or services provided. ETL,
           however, charged ASAP costs based on funds available, not on the basis of the
           actual costs incurred on behalf of the project.

           Not Following Labor Policies and Procedures. ETL personnel acknowledged
           that the laboratory was not following the established labor distribution
           procedures. For example, scientists and other operational employees signed
           incomplete worksheets that did not contain times charged to projects based upon

2
    This travel was referred to DCIS for further investigation.
                                                       8
     work done. A timekeeper who charged the employees’ times to projects based
     upon available funds then completed the worksheets. This resulted in labor costs
     being charged arbitrarily based on available funds rather than actual work
     performed on ASAP.

     Other Accrued Costs Not Controlled Effectively. ETL had not established
     internal controls to ensure that only actual costs incurred were charged for
     reimbursable sponsored research projects. Those costs should serve as a basis
     for determining the amount reimbursable for cost-reimbursement Economy Act
     orders. Since the inception of ASAP, ETL has not provided an accounting of
     actual costs incurred for the project or any applicable cost adjustments. There
     was a lack of supervisory oversight of program spending, and ETL and DoD
     have not taken steps to ensure that only actual costs are charged to ASAP. For
     example, employees could authorize their own expenditures through use of
     charge cards. When the bills for purchases were received, the costs were
     charged to projects based on fund availability.

     Management Review Ineffective. The ISSO program manager did not
     establish adequate internal controls to ensure that program funds were not being
     misused. According to the memorandum of understanding between ISSO and
     ETL, research and development work should have been reviewed regularly in
     order to facilitate evaluation of results, transfer of technology between ETL and
     ISSO, and adjustments of programmatic direction. Since the inception of the
     ASAP Joint Project, management review was conducted by annual technical
     review conferences, programmatic reviews, and written reports. However, the
     conferences, reviews, and reports were not adequate to monitor funds and
     ensure that funds were not being mischarged. ISSO provided advanced funding
     annually to ETL and did not manage the program on a cost reimbursement
     basis.



Prior Audit Findings
     In June 1996, the DoCIG issued Audit Report No. STL-7658-6-0001, “National
     Oceanic and Atmospheric Administration - OAR’s Cost Recovery for Sponsored
     Research Needs Improvement.” The Inspector General report criticized the
     “lax” management of NOAA because only 1 of 12 NOAA managed laboratories
     had implemented standardized labor distribution records to account for actual
     labor costs being charged to reimbursable research projects. The DoCIG
     recommended that NOAA develop procedures to begin immediately calculating
     and charging actual costs, including direct labor. The DoCIG recommended the
     implementation of NOAA Standard Labor Distribution Procedures. Based on
     the DoCIG recommendation, the NOAA Director of Finance established
     NOAA-wide Standard Labor Distribution Procedures cited in this report.
     Despite established procedures in place for over 4 years, ETL personnel
     acknowledged that the laboratory was not following the labor distribution
     procedures.
                                         9
Summary
    We substantiated the allegation of misuse of DoD funds by ETL. ETL
    mischarged $1.035 million of labor and other costs to the ASAP Joint Project
    and could not support an additional $576,180 charged to ASAP. ETL did not
    manage ASAP funding in accordance with the requirements of the Economy Act
    or with NOAA policies and procedures. NOAA Headquarters approved
    $511,863 of the mischarges. Additionally, the DoD program manager did not
    establish adequate internal controls to ensure program funds were not being
    misused. Consequently, there was no assurance that DoD funds were expended
    for intended purposes.


Recommendations, Management Comments, and Audit
  Response
    1. We recommend that the Intelligence Systems Support Office Program
    Manager request the Administrator, National Oceanic and Atmospheric
    Administration, to reconcile the costs charged to the Advanced Sensor
    Applications Program Joint Project from June 1993 to the present.

    2. We recommend the Intelligence Systems Support Office Program
    Manager oversee the reconciliation and determine those costs mischarged
    and those costs that cannot be supported.

    3. We recommend that the Intelligence Systems Support Office Program
    Manager request the Administrator, National Oceanic and Atmospheric
    Administration, to return funds in the amount of the mischarges and
    unsupported charges.

    4. If the Administrator, National Oceanic and Atmospheric
    Administration, does not reconcile the costs charged to the Advanced Sensor
    Applications Program Joint Project to the satisfaction of the Intelligence
    Systems Support Office Program Manager, we recommend that the
    Assistant Secretary of Defense (Command, Control, Communications, and
    Intelligence) direct the Intelligence Systems Support Office Program
    Manager to terminate the agreement with the National Oceanic and
    Atmospheric Administration for research and development in non-acoustic
    technology.

    Management Comments. The Intelligence Systems Support Office concurred
    with the recommendations, stating that they take the Inspector General finding
    substantiating the allegation of misuse of DoD funds very seriously.
                                       10
The ISSO will request the Administrator, NOAA, to reconcile costs charged to
the ASAP and will oversee the reconciliation to be completed by April 1, 2002.
ISSO will request NOAA to return funds in the amount of the mischarges and
unsupported charges that result from the reconciliation. Concerning
Recommendation number 4., regardless of the outcome of the reconciliation,
ISSO terminated their relationship with ETL effective September 30, 2001.




                                  11
Appendix A. Audit Process

Scope and Methodology
    Our report focused on the ETL, located in Boulder, Colorado. We performed
    the audit in cooperation with the DoCIG and the DCIS. The DoCIG and DCIS
    received an allegation concerning misappropriation of DoD funds. Based on the
    allegation, the objective of the audit was to determine whether DoD funds
    provided to ETL were spent in accordance with program objectives and the
    memorandum of understanding between DoD and ETL, dated June 8, 1993. In
    order to address our audit objective, we reviewed total funding paid by DoD to
    ETL and the ETL documentation that supported costs charged to DoD.
    Documentation included a review of Military Interdepartmental Purchase
    Requests valued at $44 million issued by DoD to NOAA between September
    1992 and September 2000. Additionally, we examined NOAA documentation
    that supported program costs for FYs 1998, 1999, and 2000. Our examination
    included a review of reimbursable task status billing reports, employee time and
    attendance daily reports, standardized labor distribution worksheets, vendor
    invoices, travel vouchers, purchase orders, contracts, cooperative agreements,
    research grant documentation and other supporting documents. We reviewed
    NOAA policies and procedures related to accounting for reimbursable project
    costs. We also reviewed project files and interviewed scientific and
    administrative personnel involved in administering ASAP.

    Scope of the Review. We did not review the management control program
    applicable to the ASAP Joint Project implemented within the DoD. The audit
    was limited to the program execution by the National Oceanic and Atmospheric
    Administration and, therefore, outside the purview of the DoD Management
    Control Program.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the DoD Financial Management high-risk area.

    Use of Computer-Processed Data. To achieve the audit objectives, we relied
    on computer-processed data contained in a NOAA automated system. Our
    review of system controls and the results of data tests showed the system
    controls could not be relied upon. However, when the data produced by the
    NOAA system were reviewed in context with other available evidence, we
    believe that the opinions, conclusions, and recommendations in this report are
    valid.

    Audit Type, Dates, and Standards. We performed this economy and
    efficiency audit from August 2000 through June 2001 in accordance with
    generally accepted Government auditing standards.



                                       12
Prior Coverage
    No prior coverage has been conducted on the subject during the last 5 years.




                                       13
Appendix B. Examples of Timesheet
            Irregularities
    Employee A

Time and Attendance     Employee A
Daily Report shows
80 hours charged to
the ASAP Joint
Project. The hours
were charged to
ASAP Joint Project
                                       40 hours charged
Code “BR2A01.”                         to ASAP- Code
Time and Attendance                    BR2A01
Daily Report is
jointly prepared by
an ETL timekeeper
and the employee’s
supervisor. This                      40 hours charged to
document serves as                    ASAP- Code
the official source                    BR2A01
document for payroll
purposes. Although
80 hours were
charged to the ASAP
Joint Project, the
worksheet which is
prepared by the
employee as shown
on page 15, indicates
that the employee did
not charge the ASAP
Joint Project during
the pay period.




                                 14
Employee A
                    Employee A
Employee
prepared
worksheet shows
employee A was
absent during the
pay period. No
time was charged
to the ASAP Joint
Project.
However, the
Time and
Attendance Daily                      No hours charged to
Report which is                       ASAP Joint Project.
prepared for                          Worksheet indicates
payroll purposes                      Employee A was
on page 14,                           absent.
charged the ASAP
Joint Project 80
hours for this
employee.




                                 15
Employee B

Time and Attendance
Daily Report shows
32 hours were             Employee B
charged to the ASAP
Joint Project – Code
BR2A01. Time and
Attendance Daily
Report is jointly
prepared by a             32 hours charged
timekeeper and the        to ASAP Joint
employee’s                Project –
supervisor and is
certified for payroll
purposes. However,
this conflicts with the
employee’s prepared
worksheet on page 17
which shows that the
employee did not
charge any time to
the ASAP Joint
Project; rather, the
employee’s time is
charged entirely to
research project
RR2AA9.




                                   16
Employee B

Employee
prepared             Employee B
worksheet shows
no time charged
to ASAP Joint
Project –
BR2A01. That
conflicts with the
Time and
Attendance Daily
Report submitted
to payroll as
shown on page
16.
                                   Employee’s time is charged to
                                   a project other than BR2A01-
                                   ASAP Joint Project




                                  17
  Employee C

Time and
Attendance Daily      Employee C
Report shows 80
hours charged to
the ASAP Joint
Project.
Employee-
prepared
worksheet on                            80 hours charged to
page 19 shows                           ASAP Joint Project
multiple projects
were charged.
The employee-
prepared
worksheet on
page 19 has been
altered and
changed to
reflect time
charged on this
document which
is sent to payroll.




                                   18
Employee C

Employee-
prepared           Employee C
Standard Labor
Distribution
Worksheet shows
that employee
originally
charged multiple
projects. The
worksheet was
altered and all
time was charged
to the ASAP
Joint Project.



                                     Altered worksheet.
                                     Hours changed
                                     from multiple
                                     projects to the
                                     ASAP Joint Project




                                19
Employee D

Time and
Attendance Daily
Report shows 40
hours charged to
ASAP Joint Project     Employee D
–Code BR2A01 and
40 hours charged to
Project 8R2A1310.
However,
                               40 hours
employee-prepared              charged to
worksheet on page              8R2A1310
21 shows that all of
the employee’s time
was charged to
8R2A1310 which
conflicts with this
document that was               40 hours
submitted for                   charged to
payroll purposes.               ASAP Joint
                                Project




                                      20
Employee D

Employee-
prepared Standard
Labor Distribution   Employee D
Worksheet
conflicts with
timekeeper
prepared Time and
Attendance Daily
Report on page
20. Forty hours
are charged to
ASAP Joint
Project –Code
BR2A01 and 40                          Employee
hours are charged                      charged all
to Project                             time to
8R2A1310.                              8R2A1310
However, this
employee-prepared
worksheet shows
that all of the
employee’s time is
charged to
8R2A1310. This
document conflicts
with the document
on page 20 that
was submitted to
payroll.




                                  21
 Appendix C. Example of Altered Supporting
             Documentation
ETL assigns the
expenses shown on
the invoice to a
research project by
manually labeling
the invoice with a
project code. In
this example, the
invoice shows that
coding has been
altered twice
before being
charged to
research project
code 8R2A334.
Although this
invoice has been
charged to
research project
code 8R2A334,
the costs were
actually charged to
the ASAP Joint
Project under code                Accounting
BR2A01.                           Code altered
                                  twice




                      22
Appendix D. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communication, and Intelligence)

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Intelligence Systems Support Office

Non-Defense Federal Organizations and Individuals
Office of Management and Budget
Department of Commerce
  Office of the Inspector General
General Accounting Office
  Financial Management and Assurance




                                          23
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         24
ISSO COMMENTS




                25
Audit Team Members
The Finance and Account Directorate, Office of the Assistant Inspector General for
Auditing, DoD, prepared this report. Personnel of the Office of the Inspector, DoD,
who contributed to the report are listed below.

Paul J. Granetto
Brian M. Flynn
Byron B. Harbert
Gerald P. Montoya
Ben J. Meade
Kevin M. Roths
Lisa C. Rose-Pressley
